r

UNITED STATES OF AMERICA
IN THE SUPREME COURT

f

Petitioner,
X
No.

RON DeSANTIS, GOVERNOR,
FOR THE STATE OF FLORIDA,
MARK S. INCH, SECRETARY,
FLORIDA DEPT. OF CORRECTIONS,
DAQUARIAS DUNCAN, WARDEN,
TOMOKA CORR. INSTITUTION,
Respondents.

EMERGENCY PETITION FOR WRIT OF HABEAS CORPUS
TO JUSTICE FOR ELEVENTH CIRCUIT

!'
j

cj.

mOFRCK O:- ■‘^.Pi-gRK

CHRISTOPHER VIGLIOTTI,

v.

i

•- v.

.{

I.

QUESTION PRESENTED FOR REVIEW

SHOULD THE COURT ISSUE AN EMERGENCY WRIT OF
HABEAS CORPUS REQUIRING RESPONDENT’S TO
RELEASE PETITIONER DUE TO THE FACT COVID-19 AND
ITS VARIANTS PRESENT AN IMMINENT DANGER TO
PETITIONER’S LIFE FROM WHICH PETITIONER, WHOM IS
INCARCERATED, CANNOT PROTECT HIMSELF BECAUSE
RESPONDENT’S CANNOT 100% PROTECT PETITIONER
FROM CONTRACTING THE DEADLY VIRUS UNDER ANY
LIVING CONDITIONS THAT CAN BE PROVIDED BY
RESPONDENT’S THEREBY ILLEGALLY COMMUTATING
HIS PRESENT 4.2 YEAR SENTENCE INTO A DEATH
SENTENCE?

i

II.

PARTIES

1. Petitioner, Christopher Vigliotti is a citizen of the United States incarcerated under the
custody and care of Respondent’s DeSantis, Inch and Duncan at the Tomoka Correctional
Institution, 3950 Tiger Bay Road, Daytona Beach, Florida 32124.
2. Respondent Ron DeSantis is a citizen of the United States and Governor of the State of
Florida, and is the ultimate authority over the Florida Department of Corrections.
3. Respondent Mark S. Inch is the Secretary of the Florida Department of Corrections and
is responsible for Petitioner’s care and custody (Florida Department, of Corrections, 500 South
Calhoun Street, Tallahassee, Florida 32399).
4. Respondent DaQuaris Duncan is the Warden at Tomoka Correctional Institution, and is
responsible for Petitioner’s care and custody (Tomoka Correctional Institution, 3950 Tiger Bay
Road, Daytona Beach, Florida 32124).
III.

JURISDICTION

5. Petitioner invokes this Court’s jurisdiction pursuant to the Constitution of the United
States, Article III, under Title 28 U.S.C. § 1651, and under Title 28 U.S.C. § 2241(c)(3).
6. This Court has original jurisdiction under U.S.C., Article III, as all cases affecting the
governor in which a State shall be a party, the Supreme Court shall have original jurisdiction.
IV.

CONSTITUTIONAL PROVISIONS

7. Amendment VIII to the Constitution of the United States: “Nor [shall] cruel . . .
punishment be inflicted.”
8. Amendment XIV to the Constitution of the United States: “. . . nor shall any state
deprive any person of life [or] liberty . . . without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.”

I

V.

STATEMENT OF THE CASE

9. Petitioner is diagnosed with a terminal illness that depletes his immune system thereby
placing him in the “high risk” of death category from COVE)-19 and its variants as defined by
the Center for Disease Control.
10. COVID-19 and its transmutations present an imminent danger to Petitioner’s life
from which Petitioner, who is incarcerated, cannot protect himself because Respondent’s cannot
100% protect Petitioner from contracting COVID-19 or its variants under any living conditions
that can be provided by Respondent’s during these unprecedented times.
11. It is well established that some conditions of confinement may establish an Eighth
Amendment violation.

See Helling v. McKinney, 509 U.S. 25, 33 (1993) (holding prison

officials may be deliberately indifferent to the exposure of inmates to a serious disease even if
the complaining inmate shows no serious current symptoms).
12. In the USA Today Newspaper (April 2020), in Article “Manafort Released From
Prison Amid Pandemic,” then “Attorney General William Barr announced a plan to expedite the
release of vulnerable prisoners to home confinement as infections and fatalities mounted.” “Barr
asked Bureau of Prison officials to grant home confinement based on factors including prisoner’s
age and vulnerability to COVID-19, their conduct in prison, and the crimes for which they were
convicted.”
13. In class action suit under 42 USC § 1983, Case No. 2:20-cv-02471, EAS-KAJ, DOC
#1, filed 5/15/2020 in the Southern District of Ohio, Plaintiffs Smith, Wang, Martin and
Williams v. Dewine and Smith raised similar allegations against the Governor and Secretary of
the Ohio Dept, of Rehabilitation and Corrections. (See attached). Where prisoners of that State
were and are faced with conditions where they could not be 100% protected from this invisible

2

killer labeled COVID-19, which caused the prisoners of that State such mental anguish that the
prisoners banded together and initiated a class action suit in order to protect themselves from the
killer. Something the prison officials failed and continue to fail in protecting the inmates of that
State and this scenario is similar across the U.S.A.
14. Petitioner hereby incorporates all research contained within the attached class action
to be incorporated within this petition.
15. Petitioner Vigliotti, presently takes exclusive medication that keeps him alive from
his terminal illness, and is afraid of the short and long-term drug interactions with the present
vaccines, as there are no short or long term studies. Who can be 100% certain that such vaccine
will not render his present medication ineffective thereby causing his ultimate death.
16. Petitioner Vigliotti was sentenced on March 25, 2019 for a violation of probation to
15 years DOC with credit for 9.6 years already served.
17. Petitioner Vigliotti has served his sentence without any major disciplinary reports
since 2007. He has presently served more than 71% of his total sentence.
18. Petitioner Vigliotti’s sentence is for a non-violent event revolving around mortgage

fraud.
19. Given all of the requirements set forth by U.S. Attorney William Barr, and those
outlined within the Ohio class action, Mr. Vigliotti qualifies to have this emergency petition
granted, and to be released from Tomoka Correctional Institution under home confinement or
probation.
VL

REASONS FOR NOT MAKING APPLICATION TO THE DISTRICT COURT
20. This petition is brought directly to this Honorable Court as the circumstances

surrounding this situation present a clear and present threat of imminent danger to Petitioner’s

3

life. If Petitioner contracts COVID-19, or a variant, it will result in illegally commutating his
present 4.2 year sentence into a death sentence over which this Court has exclusive jurisdiction.
WHEREFORE, Petitioner respectfully requests this Court to grant any writs or relief
deemed appropriate and just.

Respectfully submitted,
Dated:

7

7

6#RISTOPgER VIGLI03TI, PRO SE
#W14827
Tomoka Correctional Institution
3950 Tiger Bay Road
Daytona Beach, Florida 32124

<z£Corda.n.c.e,
if

wiih. 7?«/e

. an J,
)

Z8 U5 C. 77%

declare under ^Penalty oP /Perjury

pkt Poft^oin^

>5

dat

and (darre c t.

t)

Ppkrij 'topJier^y^d'o / a Ph
PC. * 2J/</8Pi 7
Yj,
•n!

m

c/de.' t

Andrew H. McGee '
j Notary Public
| State of Florida
* Comm# HH010963
Expires 6/16/2024

4

